Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     FDA’S MONITORING OF 

     POSTMARKETING STUDY 

        COMMITMENTS





                    Daniel R. Levinson

                     Inspector General 


                       June 2006 

                     OEI-01-04-00390

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
I N T R O D        U C T            I O N
Δ    E X E C U T I V E                                    S U M M A R Y                  



                    OBJECTIVES
                    1. 	 To determine the extent to which new drug applications involve
                         postmarketing study commitments with the Food and Drug
                         Administration (FDA).

                    2. 	 To determine how and the extent to which FDA monitors open
                         postmarketing study commitments for new drug applications.


                    BACKGROUND
                    FDA requires all new drugs to undergo clinical testing to demonstrate
                    their safety and efficacy prior to approval for sale in the United States.
                    However, these premarket clinical trials involve relatively small
                    numbers of individuals compared to the actual numbers who will
                    eventually use the drugs. Therefore, it is possible that additional
                    information regarding the safe and effective use of any drug may not be
                    fully known until the drug is approved and prescribed to larger numbers
                    of individuals in the general population. To learn more about the risks,
                    benefits, and optimal use of an approved drug, drug applicants may
                    conduct postmarketing studies, which are studies conducted while drugs
                    are already on the market. These studies have become increasingly
                    common in recent years. Meanwhile, members of Congress, FDA, and
                    others have raised concerns that drug applicants are not completing
                    these studies in a timely manner.

                    FDA has the authority to require postmarketing study commitments in
                    certain situations (e.g., accelerated approval), but most postmarketing
                    study commitments are requested by FDA and agreed to by drug
                    applicants. The Food and Drug Administration Modernization Act of
                    1997 (FDAMA) provided FDA with new authorities for monitoring
                    certain types of postmarketing studies. FDAMA requires that drug
                    applicants submit annual status reports (ASRs) that provide
                    information on the status of certain postmarketing studies. Some of the
                    information from these reports is considered public information.
                    Reviewers within FDA’s Center for Drug Evaluation and Research
                    (CDER) are charged with validating the accuracy of these reports.

                    We reviewed FDA’s database of postmarketing study commitments for
                    new drug applications approved during fiscal years 1990 through 2004.
                    We also examined documents regarding postmarketing study
                    commitments that drug applicants submitted to FDA in fiscal year


 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS       i
E X E C U T I V E                       S U            M M A R Y


                   2004. We interviewed project managers in CDER. Finally, we reviewed
                   FDA policies and procedures regarding postmarketing commitments.


                   EXTENT OF COMMITMENTS
                   Forty-eight percent of new drug applications approved from fiscal years
                   1990 through 2004 involved at least one postmarketing study
                   commitment.

                   FDA classified 74 percent of these postmarketing study commitments as
                   clinical studies. Ninety-one percent of postmarketing commitments
                   were requested by FDA and agreed to by drug applicants as opposed to
                   being required by statute or regulation.

                   Approved new molecular entities tended to have more postmarketing
                   study commitments than other approved new drug applications.

                   Two of fifteen review divisions at FDA accounted for 40 percent of the
                   postmarketing study commitments from fiscal years 1990 through 2004.


                   FINDING
                   FDA cannot readily identify whether or how timely postmarketing
                   study commitments are progressing toward completion.
                   About one-third of ASRs were missing or incomplete.
                   o Thirty-five percent of the 336 ASRs that were or should have been
                     submitted in fiscal year 2004 were missing entirely or contained no
                     information on open postmarketing study commitments.
                     Thirty-nine percent were missing one or more items of required
                     information.
                   ASRs contain information of limited utility.
                   o Even complete ASRs lack information that would be useful in
                     monitoring the progress of postmarketing study commitments.
                   o FDA has limited recourse when drug applicants do not submit
                       required information or do not demonstrate progress in completing
                       their postmarketing study commitments.
                   FDA lacks an effective management information system for monitoring
                   postmarketing study commitments.
                   o FDA reviewers cannot easily identify which annual reports should
                     include ASRs for outstanding postmarketing study commitments.




 OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS      ii
E X E C U T I V E                       S U            M M A R Y


                   o FDA utilizes a confusing numbering system to identify
                       postmarketing study commitments, and drug applicants do not
                       always provide numbers for commitments they address in ASRs.
                   o FDA frequently does not populate the fields of its database of
                       postmarketing study commitments with information from
                       commitment letters and ASRs that could assist reviewers in
                       tracking the progress of commitments.
                   Monitoring postmarketing study commitments is not a top priority at FDA.
                   o FDA reviewers indicated to us that monitoring postmarketing study
                     commitments is not generally considered a top priority at FDA.
                     Our analysis showed that FDA validated only 30 percent of ASRs
                     submitted in fiscal year 2004; five review divisions did not validate
                     any ASRs.


                   RECOMMENDATIONS
                   To better determine whether and how timely postmarketing study
                   commitments are progressing toward completion, FDA should:
                   o Instruct drug applicants to provide additional, meaningful
                       information in their ASRs;
                   o Improve the management information system for monitoring
                       postmarketing study commitments so that it provides timely,
                       accurate, and useful information; and
                   o Ensure that postmarketing study commitments are being
                       monitored and that ASRs are being validated.


                   AGENCY COMMENTS
                   FDA disagreed with our finding that it cannot readily identify whether
                   and how timely postmarketing study commitments are progressing
                   toward completion. The agency emphasized both the seriousness with
                   which it takes its obligation to monitor the progress of postmarketing
                   study commitments and that it makes some information regarding the
                   commitments publicly available.

                   FDA concurred with two of our three recommendations. Specifically,
                   FDA agreed with our recomendations to improve the management
                   information system for monitoring postmarketing study commitments
                   and to ensure that postmarketing study commitments are being
                   monitored and ASRs are validated. The agency highlighted ongoing

 OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   iii
E X E C U T I V E                       S U            M M A R Y


                   efforts to enhance its postmarketing study commitment database and
                   reporting capabilities, train its review division staff on ASR validation
                   procedures, and standardize the process by which postmarketing study
                   commitments are requested and reviewed.

                   FDA disagreed with our recommendation that it instruct drug
                   applicants to provide additional, meaningful information in their ASRs,
                   citing that implementing such a recommendation would require new
                   regulations.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   In disagreeing with our finding, FDA highlighted several areas in which
                   it has made improvements. We appreciate that FDA has taken steps to
                   improve its monitoring of postmarketing study commitments. However,
                   our review of the postmarketing study commitment database and
                   annual status reports, as well as our interviews with agency officials,
                   demonstrated that FDA cannot readily identify whether or how timely
                   postmarketing study commitments are progressing toward completion
                   for the period of our review.

                   We recognize that our recommendation that FDA instruct drug
                   applicants to provide additional, meaningful information in their ASRs
                   could require regulatory changes. In response, we added language to
                   our recommendation acknowledging that FDA may need to seek
                   regulatory changes to improve its system for monitoring postmarketing
                   study commitments.

                   We also made other minor changes to our report based on FDA’s
                   technical comments.




 OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    iv
Δ   T A B L E           O F           C O N T E N T S                                




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         EXTENT OF COMMITMENTS............................... 8




         F I N D I N G . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    FDA cannot readily identify progress . . . . . . . . . . . . . . . . . . . . . . 11 


                      Missing or incomplete information. . . . . . . . . . . . . . . . . . . . . . . . 11 


                      Limited utility of information. . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                      Ineffective mangement information system. . . . . . . . . . . . . . . . . 14 


                      Monitoring is not a top priority . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                    Office of Inspector General response . . . . . . . . . . . . . . . . . . . . . . . 22 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                    A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                    B: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 


                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 

I N T R O D        U C T            I O N
Δ    I N T R O D U C T I O N                                          



                    OBJECTIVES
                    1. 	 To determine the extent to which new drug applications involve
                         postmarketing study commitments with the Food and Drug
                         Administration (FDA).

                    2. 	 To determine how and the extent to which FDA monitors open
                         postmarketing study commitments for new drug applications.


                    BACKGROUND
                    The Importance of Postmarketing Studies
                    FDA requires all new drugs to undergo clinical testing to demonstrate
                    their safety and efficacy prior to approval for sale in the United States.1
                    However, these premarket clinical trials involve relatively small
                    numbers of individuals compared to the actual numbers who will
                    eventually use the drugs. Therefore, it is possible that additional
                    information regarding the safe and effective use of any drug may not be
                    fully known until the drug has been approved and then prescribed to
                    larger numbers of individuals in the general population. It is especially
                    likely that information regarding rare side effects will not be fully
                    known based on premarket trials.

                    To learn more about the risks, benefits, and optimal use of an approved
                    drug, drug applicants may conduct additional studies after a drug is
                    already on the market.2 These studies, known as postmarketing
                    studies, may evaluate a drug’s safety, efficacy, pharmacology,
                    toxicology, and/or manufacturing controls, among other factors. It is
                    common for a drug to be involved in multiple postmarketing studies.

                    Although postmarketing studies provide important information about
                    drugs, FDA does not consider them essential to drug approvals except in
                    limited circumstances, such as to support accelerated approval
                    applications or for required pediatric studies.3 Based on the results of
                    postmarketing studies, FDA may approve changes to a drug’s label,
                    approve a drug for new uses, require changes in a drug’s manufacturing
                    process, or, in rare cases, seek to withdraw a drug from the market.
                    Most postmarketing studies provide information that leads to labeling
                    changes, such as how optimal dosing may differ across patient
                    populations.

                    Given the valuable information that postmarketing studies can provide,
                    it is not surprising that they are becoming increasingly common.

 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS      1
I N T R O D        U C T            I O N


                    A 1996 Office of Inspector General (OIG) report found that the
                    percentage of new drugs with postmarketing study commitments
                    increased from the early 1970s through the early 1990s.4 FDA’s report
                    to Congress on postmarketing study commitments in April 2002 found a
                    similar trend.5
                    At the same time, members of Congress, FDA, and others have raised
                    concerns that drug applicants are not fulfilling their postmarketing
                    study commitments in a timely manner.6,7
                    Types of Postmarketing Studies
                    There are three main types of postmarketing studies: (1) studies
                    required by FDA, (2) studies requested by FDA and agreed to by drug
                    applicants, and (3) voluntary studies. The latter two are the most
                    common types of postmarketing studies.
                    Studies required by FDA. In certain situations, FDA has the statutory or
                    regulatory authority to require drug applicants to conduct
                    postmarketing studies.8 These postmarketing study commitments are
                    the least common.
                    Studies requested by FDA and agreed to by drug applicants. Although FDA
                    can request that drug applicants conduct postmarketing studies at any
                    time, most requests for postmarketing studies are made prior to drug
                    approval, when FDA has leverage over drug applicants who are eager to
                    obtain approval for their products. Manufacturers not only agree to
                    these commitments in writing, but FDA also lists the commitments in
                    final approval letters. However, FDA does not have any authority to
                    sanction drug applicants that fail to conduct these studies. These are
                    the most common postmarketing study commitments.
                    Voluntary studies. Voluntary studies are studies that drug applicants
                    conduct on their own initiative.
                    FDA’s Monitoring of Postmarketing Study Commitments
                    Section 130(a) of Title I of the Food and Drug Administration
                    Modernization Act of 1997 (FDAMA) added section 506B to the Food,
                    Drug, and Cosmetic Act and provided FDA with new authorities for
                    monitoring certain postmarketing studies associated with drugs and
                    biologics.9 Congress enacted this section in response to concerns
                    expressed by FDA and the public about the timeliness with which
                    postmarketing studies were being completed and the need to update
                    drug labeling with information obtained from such studies.10 Section
                    506B of FDAMA contains two particularly relevant provisions:


 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS      2
I N T R O D        U C T            I O N


                    (1) it requires reporting on the status of certain postmarketing studies,
                    and (2) it establishes that certain information in these reports is
                    considered public information.11,12 These reports, known as annual
                    status reports (ASRs), are intended to be a key tool for FDA to use in
                    monitoring postmarketing study commitments.

                    In October 2000, FDA issued final regulations on the nature and
                    contents of ASRs for open postmarketing study commitments required
                    under FDAMA.13 Pursuant to the regulations, the types of
                    commitments for which drug applicants must submit ASRs are studies
                    that address: (1) clinical safety, (2) clinical efficacy, (3) clinical
                    pharmacology, and (4) nonclinical pharmacology.14 This requirement
                    covers all studies required by FDA and all studies requested by FDA
                    and agreed to by drug applicants, except for chemistry, manufacturing,
                    and control studies.15 The requirement excludes voluntary studies.
                    Throughout this report, we use the terms commitment and
                    postmarketing study commitment to refer only to postmarketing studies
                    that require annual reporting under FDAMA.
                    Pursuant to regulation, ASRs must contain the following information:16

                   o Applicant name

                   o Product name

                   o Application number

                   o Date of U.S. approval

                   o Date of postmarketing study commitment

                   o Description of postmarketing study commitment

                   o Schedule for completion of and reporting on the postmarketing
                       commitment
                   o Status of the commitment

                           o Pending: The study has not started, but is not behind schedule.

                           o Ongoing: The study is ahead of or on schedule.

                           o Delayed: The study is behind the original schedule.

                           o Terminated: The study was ended before completion, but a final
                               report has not been submitted to FDA.




 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS     3
I N T R O D        U C T            I O N


                           o Submitted: The study was completed or terminated and a final
                               report was submitted to FDA for review.
                    o Explanation of the status of the study

                    Drug applicants must submit ASRs within 60 days of the anniversary of
                    the approval of a new drug application.17 Generally, ASRs can be found
                    in larger reports, known as annual reports, which are submitted by
                    drug applicants and contain information concerning changes in
                    manufacturing practices and labeling, among other things. FDA’s goal
                    is to review ASRs within 90 days of receipt.18 The main focus of FDA
                    reviews is to validate the accuracy of the information in the ASRs;
                    however, FDA also determines whether drug applicants are making
                    adequate progress toward fulfilling their commitments. FDA may
                    follow up with drug applicants regarding these reports as necessary,
                    such as for late and/or incomplete reports.

                    In April 2001, FDA issued draft guidance to industry that elaborates on
                    the regulatory requirements for the content of ASRs.19 This guidance
                    was finalized in February 2006 (after the period of our review).20
                    The Prescription Drug User Fee Act of 2002, which reauthorized user
                    fees for the review of new drug applications, also provided FDA with
                    additional tools to improve compliance with postmarketing
                    commitments. The law amended section 506B of the Federal Food,
                    Drug, and Cosmetic Act to require the Secretary to inform the public if
                    and when drug applicants fail to fulfill such commitments.21 In
                    November 2004, FDA announced that it had contracted with the
                    Institute of Medicine to study the effectiveness of the drug safety
                    system with an emphasis on the postmarket phase.22 In February 2005,
                    FDA announced the creation of the Drug Safety Board to oversee drug
                    safety issues, in which postmarketing studies can play a part.23
                    Center for Drug Evaluation and Research Procedures
                    Within FDA, the Center for Drug Evaluation and Research (CDER) is
                    responsible for reviewing new drug applications and for monitoring
                    postmarketing study commitments for drugs. Reviewers within CDER’s
                    Office of New Drugs (OND) have the lead responsibility for reviewing
                    new drug applications and ASRs for postmarketing study commitments.
                    Typically, the reviewer who reviewed a new drug application also
                    reviews any associated ASRs. CDER reviewers have backgrounds in
                    various disciplines, including pharmacy, chemistry, and medicine,
                    among others. There are multiple review divisions within OND.


 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS      4
I N T R O D        U C T            I O N


                    In 1996, CDER issued procedures for tracking and monitoring
                    postmarketing commitments.24 CDER is in the process of updating
                    these procedures. In 2001, CDER implemented a new database to track
                    and monitor the status of postmarketing commitments. To foster public
                    accountability in completing these commitments, portions of this
                    database are available to the public on the FDA Web site.25
                    In March 2005, CDER issued procedures for reviewing ASRs for
                    postmarketing study commitments. These procedures require reviewers
                    to complete worksheets that document that they verified the accuracy of
                    the information in the ASRs. Reviewers must indicate on the
                    worksheets whether they agree with the status of commitments and
                    explanations of status as reported by drug applicants.26
                    After a final study report is submitted, CDER procedure calls for a
                    review to determine whether a given commitment has been fulfilled; if it
                    has, CDER sends a fulfillment letter to the drug applicant.27
                    Prior Office of Inspector General Reports
                    In May 1996, OIG issued a report assessing the effectiveness of FDA’s
                    monitoring of postmarketing study commitments for drugs.28 This
                    inspection found that the number of new drugs with postmarking
                    commitments was increasing, but that FDA lacked both formal
                    procedures for monitoring these commitments and an effective
                    management tool to track the status of commitments. The inspection
                    attributed these vulnerabilities to competing priorities, limited
                    resources, and an inability to enforce compliance.

                    In March 2003, OIG issued a report assessing how FDA manages the
                    new drug application review process.29 This inspection found that
                    reviewers were often uncertain about what types of postmarketing
                    commitments to request of drug applicants prior to drug approval.
                    Recent FDA Initiatives
                    Over the past several years, FDA has changed the way it monitors
                    postmarketing study commitments. FDA has: (1) implemented a new
                    database to track the status of postmarketing study commitments,
                    (2) issued new procedures for tracking and reviewing commitments,
                    (3) received additional authorities to require drug applicants to report
                    annually on the progress of their commitments and publicly disclose
                    information from these reports, (4) issued new procedures for reviewing
                    annual status reports, and (5) issued guidance for industry regarding
                    status reports for postmarketing study commitments.


 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   5
I N T R O D        U C T            I O N 




                    METHODOLOGY
                    Our analysis involved several data sources and methods. (For a
                    complete description of our methodology, see Appendix A.)

                    We reviewed FDA’s database of postmarketing study commitments for
                    new drug applications approved from fiscal years 1990 through 2004.
                    Because the database does not consistently show when postmarketing
                    study commitments were initiated, we linked each postmarketing study
                    commitment to the fiscal year in which its new drug application was
                    approved. We performed trend analyses by year, study type, study
                    category, review division, and study status. We conducted the same
                    trend analyses for postmarketing study commitments associated with
                    new molecular entities (NMEs), a subset of new drug applications for
                    drugs that contain active ingredients never before approved for
                    marketing in the United States.

                    We reviewed annual reports that FDA received from drug applicants in
                    fiscal year 2004 that did or should have contained ASRs for open
                    postmarketing study commitments. We matched the postmarketing
                    studies listed in these ASRs to commitments in FDA’s database of
                    postmarketing study commitments and analyzed the ASRs for
                    completeness and accuracy. We also reviewed all available FDA
                    validations and other supporting documentation associated with fiscal
                    year 2004 ASRs.

                    We also reviewed all fulfillment letters issued by FDA in fiscal year
                    2004. For a subset of commitments fulfilled in fiscal year 2004, we
                    obtained additional documentation from FDA, which we reviewed to
                    determine reasons for lateness and the extent of FDA followup.

                    We interviewed project managers at 14 of the 16 review divisions within
                    CDER. We did not speak to reviewers at the two divisions that oversee
                    therapeutic biologic drugs, which were excluded from the scope of this
                    inspection.30 We used a structured questionnaire to conduct the
                    interviews; this questionnaire addressed policies and procedures,
                    challenges, and recommendations regarding monitoring postmarketing
                    study commitments. We conducted all interviews by telephone.

                    Finally, we reviewed all relevant policies, procedures, and guidance
                    documents for postmarketing study commitments issued by FDA. We
                    used these documents to better understand the process for monitoring
                    postmarketing study commitments.



 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS      6
I N T R O D        U C T            I O N


                    We conducted this evaluation in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency and the Executive Council on Integrity and
                    Efficiency.




 OEI-01-04-00390    F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    7
Δ   E X T E N T                                  O F                  C O M M I T M E N T S                                          




                  In this section we provide a summary of the extent and nature of
                  postmarketing study commitments associated with new drug
                  applications approved from fiscal years 1990 through 2004.
                  For additional information, see Appendix B.
                  Forty-eight percent of new drug applications approved from fiscal years
                  1990 through 2004 involved at least one postmarketing study commitment.
                  On an annual basis, the percentage of approved new drug applications
                  with at least one commitment ranged from a low of 26 percent (in 1990) to
                  a high of 71 percent (in 2004). From fiscal years 1995 through 2003, the
                  percentage of approved new drug applications with at least one
                  commitment was fairly constant. (See Chart 1 below.)



                                                       Chart 1. Percentage of New Drug Applications With at Least
                                                         One Postmarketing Study Commitment, by Fiscal Year,
                                                                               1990–2004

                                                80

                                                70
                       Percentage of New Drug




                                                60
                             Applications




                                                50

                                                40

                                                30

                                                20

                                                10

                                                0
                                                     1990

                                                            1991

                                                                     1992

                                                                            1993

                                                                                   1994

                                                                                          1995

                                                                                                 1996

                                                                                                         1997

                                                                                                                1998

                                                                                                                       1999

                                                                                                                              2000

                                                                                                                                     2001

                                                                                                                                            2002

                                                                                                                                                   2003

                                                                                                                                                              2004
                                                                                                        Year
                    Source: Office of Inspector General analysis of FDA data, 2005.




                  FDA classified 74 percent of postmarketing study commitments from fiscal
                  years 1990 through 2004 as clinical. Ninety-one percent of postmarketing
                  commitments were requested by FDA and agreed to by drug applicants as
                  opposed to being required.
                  Clinical postmarketing studies involve an approved drug being
                  administered to humans and evaluated for safety and/or efficacy. (See
                  Table 1 on the following page.)

OEI-01-04-00390   F D A’ S M O N I TO R I N G               OF     POSTMARKETING STUDY COMMITMENTS                                                        8
E X T E N T          O F                C O M M I T M E N T S                                   





                   Table 1. Postmarketing Study Commitments by Nature
                   From Fiscal Years 1990–2004

                   Nature of Postmarketing                             Number of Postmarketing            Percentage of Postmarketing
                   Study Commitment                                        Study Commitments                      Study Commitments


                   Clinical                                                                  1,732                                74

                   Pediatric*                                                                  326                                14

                   Nonclinical                                                                 255                                11

                   All Others                                                                   40                                 2

                        Total                                                               2,353                                  **

                   *Pediatric studies are considered clinical studies, but are tracked separately in FDA's database.

                   ** Column does not sum to 100 due to rounding.

                   Source: Office of Inspector General analysis of FDA data, 2005.





                   Further, the overwhelming majority of postmarketing study
                   commitments from the period of our review were requested by FDA.
                   (See Table 2 below.) Drug applicants agree to conduct requested study
                   commitments in writing, and FDA lists the commitments in final
                   approval letters.




                   Table 2. Postmarketing Study Commitments by Type
                   From Fiscal Years 1990–2004

                   Type of Postmarketing                                Number of Postmarketing            Percentage of Postmarketing
                   Study Commitment                                         Study Commitments                      Study Commitments


                   Requested by FDA                                                            2,132                                91

                   Accelerated Approval*                                                            118                                 5

                   Deferred Pediatric*                                                              102                                 4

                   Animal Efficacy*                                                                   1                            <1

                        Total                                                                 2,353                                100
                   * Full explanations of these postmarketing study commitment types can be found in endnote 8.
                   Source: Office of Inspector General analysis of FDA data, 2005.




 OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                                        9
E X T E N T          O F                                   C O M M I T M E N T S                                                       



                   Approved new molecular entities tended to have more postmarketing study
                   commitments than other approved new drug applications.
                   NMEs are approved drugs that contain active ingredients that have never
                   been approved for marketing in the United States. Because less is known
                   about these entirely new drugs, it is perhaps not surprising that, on
                   average, NMEs tended to be associated with more postmarketing study
                   commitments than other new drug applications. (See Chart 2 below.)




                                                                Chart 2. Average Numbers of Commitments for
                                                            NME and Non-NME New Drug Applications, by Fiscal Year,
                                                                                 1990–2004
                                                7

                                                6
                        Number of Commitments




                                                5

                                                4
                                                                                                                                                                NMEs
                                                3                                                                                                               non-NMEs

                                                2

                                                1

                                                0
                                                    1990

                                                           1991

                                                                  1992

                                                                           1993

                                                                                  1994

                                                                                         1995

                                                                                                1996

                                                                                                        1997

                                                                                                               1998

                                                                                                                      1999

                                                                                                                             2000

                                                                                                                                    2001

                                                                                                                                           2002

                                                                                                                                                  2003

                                                                                                                                                         2004
                                                                                                       Year

                    Source: Office of Inspector General analysis of FDA data, 2005.




                   Two of fifteen review divisions within CDER accounted for 40 percent of the
                   postmarketing study commitments from fiscal years 1990 through 2004.
                   During the period of our inquiry, the Division of Anti-Viral Drug
                   Products oversaw 26 percent of the postmarketing study commitments
                   and the Division of Special Pathogen and Immunologic Drug Products
                   oversaw 14 percent of postmarketing study commitments. None of the
                   other CDER review divisions oversaw more than 10 percent of
                   postmarketing study commitments. (See Appendix B, Table 2, for
                   additional information.)




 OEI-01-04-00390   F D A’ S M O N I TO R I N G                    OF     POSTMARKETING STUDY COMMITMENTS                                                         10
  Δ       F I N D I N G                        



FDA cannot readily identify whether or how timely
         postmarketing study commitments are
                 progressing toward completion

                        About one-third of ASRs were missing or incomplete
                        ASRs are intended to be a key source of information for FDA and an
                        important tool for monitoring postmarketing study commitments.

                        Of the 336 ASRs that, according to FDA, were or should have been
                        submitted by drug applicants in fiscal year 2004, 35 percent (119) were
                        either missing entirely or contained no information on open
                        postmarketing study commitments; some stated explicitly that no open
                        postmarketing study commitments existed when, in fact, they did.
                        (See Table 3 below.)


                        Table 3. Classification of ASRs That Were or Should Have
                        Been Submitted in Fiscal Year 2004


                        Description of ASR                                            Number of ASRs   Percentage of ASRs


                        ASR Not Submitted by Drug
                                                                                                  27                   8
                        Applicant

                        ASR Did Not Contain Information
                        on Open Postmarketing Study                                               92                  27
                        Commitments

                        ASR Contained Information on at
                        Least One, but Not Necessarily All
                                                                                                 217                  65
                        Open Postmarketing Study
                        Commitments

                             Total                                                              336                  100
                        Source: Office of Inspector General analysis of FDA data, 2005.




                        Of the 788 commitments listed in the ASRs from fiscal year 2004 that
                        could be matched with commitments in FDA’s database of
                        postmarketing study commitments, 39 percent (307) were missing one
                        or more items of required information. (See Table 4 on the following
                        page.) For example, drug applicants did not provide a status for
                        8 percent of commitments (65) and did not provide an explanation of



      OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                    11
F   I N D I N G


                      status for 10 percent of commitments (78). (See Appendix B, Table 3,
                      for additional information.)

                      For an additional 14 percent of commitments (110), drug applicants
                      wrote something about the status of their commitments but did not
                      provide one of the status definitions (i.e., pending, ongoing, delayed,
                      terminated, and submitted) that are required by regulation.31 For
                      example, we reviewed ASRs that identified the status of commitments
                      as “the final report of the study will be available by the end of the year,”
                      and “the data is currently being analyzed.” If drug applicants do not
                      provide one of the standard status definitions, FDA may not be able to
                      post accurate information about the status of commitments on its public
                      Web site of postmarketing study commitments.



                      Table 4. Number of Required Elements Missing From
                      Fiscal Year 2004 ASRs, per Postmarketing Study Commitment

                      Number of                                            Number of Postmarketing   Percentage of Postmarketing
                      Missing Elements                                         Study Commitments             Study Commitments


                      7                                                                         1                            <1

                      6                                                                         3                            <1

                      5                                                                         9                             1

                      4                                                                        49                             6

                      3                                                                        54                             7

                      2                                                                        68                             9

                      1                                                                       123                            16

                      0                                                                       481                            61

                           Total                                                              788                           100
                      Source: Office of Inspector General analysis of FDA data, 2005.




                      ASRs contain information of limited utility
                      Even complete ASRs often lacked information that would be useful in
                      monitoring the progress of postmarketing study commitments. Of the
                      FDA officials we interviewed at the 14 review divisions, officials at
                      9 told us that the inadequacy of information even on complete ASRs
                      poses a major or moderate challenge to their ability to effectively

    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                             12
F   I N D I N G


                      monitor the progress of postmarketing study commitments. Some of the
                      FDA reviewers we interviewed indicated that the information provided
                      on ASRs does not assist in ensuring progress of postmarketing study
                      commitments. For example, one official we interviewed categorized the
                      current process for monitoring postmarketing study commitments as
                      “very shallow” because, although validating ASRs provides information
                      on whether FDA agrees with the status of commitments, it does not
                      necessarily serve to move commitments toward completion.

                      In 2001, FDA released draft
                      guidance to industry on how to 	            Nine elements required to be
                                                                  reported on ASRs for open
                      complete ASRs for postmarketing 	           postmarketing study commitments
                      study commitments.32 This
                      guidance, finalized in February             o Applicant name
                                                                  o Product name
                      2006, reiterates and provides 	             o Application number
                      additional detail about the 	               o Date of U.S. approval
                                                                  o Date of postmarketing study
                      regulatory requirements. It 	
                                                                    commitment
                      includes a section on the content           o Description of postmarketing
                      and format of ASRs and provides               study commitment
                                                                  o Original schedule for completing
                      detailed information on the nine              the postmarketing study
                      required items of information that,           commitment
                      pursuant to regulations, must be 	          o Status of the commitment
                                                                  o Explanation of the status
                      reported for each open
                      postmarketing study commitment. 	           Source: 21 CFR § 314.81(b)(2)(vii).
                      (See the box to the right.) The
                      regulations require drug applicants to report a schedule for completion
                      and reporting of the postmarketing study commitment. The regulations
                      also recommend that the schedule contain certain milestones, including
                      projected dates of initiation for different phases of the studies. FDA
                      recognizes these milestones and others—including dates of submission
                      of study protocols, completion of participant enrollment, completion of
                      the study, and submission of the final study report—as “common and
                      important to determining study progress.”33 Additionally, the guidance
                      states that in providing an explanation of any commitment’s status, a
                      drug applicant should briefly explain the progress of the commitment
                      with regard to its original schedule.34
                      Our review of ASRs found that they frequently lacked the information
                      and detail either required or recommended by regulation. For example,
                      many of the ASRs we reviewed provided none of the milestone dates
                      recommended by the regulations, and others included information on
                      only some of the dates. Further, even when drug applicants explained

    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS         13
F   I N D I N G 



                      the status of commitments, the explanations often lacked detail. We
                      saw examples of drug applicants simply listing the status of the
                      commitment (e.g., pending) as both the status and the explanation of
                      the status.

                      The inadequacy of information on ASRs makes it difficult for FDA
                      reviewers to readily identify the data they actually require to monitor
                      the progress of postmarketing study commitments effectively. Not only
                      are the most substantive aspects of the ASRs often lacking detail, but
                      further, ASRs do not give reviewers complete pictures of the progress of
                      postmarketing study commitments. Rather, reviewers must evaluate
                      additional reports—including study protocols, progress reports, and
                      final reports—submitted by drug applicants over the past year(s).

                      However, ASRs do not include information that would link
                      commitments with those reports. FDA does not require drug applicants
                      to include in ASRs the dates on which they submitted additional
                      information or to where they submitted that information. Officials told
                      us that having this information readily available would make it easier
                      to locate the documents they need to review. One official said that,
                      currently, finding the information necessary to review open
                      postmarketing study commitments is like “looking for a needle in a
                      haystack.”

                      Section 130(a) of Title 1 of FDAMA does not provide any enforcement
                      authority to FDA for instances in which drug applicants do not submit
                      required information or demonstrate progress in completing their
                      postmarketing study commitments. As a practical matter, FDA officials
                      have two options for short-term action in such cases: (1) sending letters
                      and (2) placing phone calls to drug applicants. Although many of the FDA
                      officials we interviewed stated that letters or phone calls may often be
                      enough to get drug applicants to submit the information FDA is
                      requesting, in some cases these options are ineffective.

                      FDA lacks an effective management information system for monitoring
                      postmarketing study commitments
                      Difficulty identifying overdue ASRs. Although FDA management provides
                      review divisions with some reports for monitoring the status of
                      postmarketing study commitments, there appears to be a low level of
                      awareness of these reports in the review divisions and the reports may
                      be of limited utility. The FDA officials we interviewed in the review
                      divisions indicated that they cannot readily identify which annual


    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   14
F   I N D I N G 



                      reports have associated open postmarketing commitments and,
                      therefore, should contain ASRs. The reviewers we interviewed told us
                      that they must either cross-reference the postmarketing commitment
                      database for open postmarketing study commitments or rely on
                      informal tools (e.g., knowledge of FDA employees or informal lists) to
                      determine whether an approved new drug application has open
                      postmarketing commitments requiring the submission of an ASR.
                      Several FDA officials we interviewed stated that they only know reports
                      will be late when drug applicants call to tell them. Of the FDA officials
                      we interviewed at the 14 review divisions, officials at 8 stated that the
                      current tracking system poses either a major or moderate challenge to
                      their ability to effectively monitor the progress of postmarketing study
                      commitments.

                      Our review of ASRs uncovered additional barriers to using the
                      postmarketing study commitment database to determine when ASRs
                      are overdue. We compared the list of ASRs FDA reported as having
                      been submitted or not submitted in fiscal year 2004 with the database of
                      postmarketing study commitments. This comparison showed that not
                      all of the open commitments in the database were accounted for in
                      ASRs.35 FDA reported that some of these commitments were for drugs
                      that had been withdrawn from the market; yet the database did not
                      capture this information. Further, FDA reported that some
                      commitments were not reported on because of drug applicant mergers or
                      other reasons. Nonetheless, the regulations require that ASRs be
                      submitted annually until a final study report has been submitted to
                      FDA and the drug applicant has been notified that the study
                      commitment has been fulfilled.36 The regulations provide no exceptions
                      for drug applications that have experienced changes in ownership.
                      Confusing numbering system. FDA uses a confusing numbering system
                      for postmarketing study commitments. At the time of a drug’s approval,
                      FDA numbers any commitments for that drug sequentially starting
                      with “1.” In addition, when FDA approves a subsequent supplemental
                      application for the same drug, it again numbers any commitments
                      sequentially starting with “1.” These numbers appear in the drug
                      approval letters sent to drug applicants and in FDA’s database of
                      postmarketing study commitments.

                      Further complicating matters is that drug applicants do not always
                      number the commitments they address in their ASRs; even when they
                      do so, the numbers do not always match the numbers in FDA’s database


    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   15
F   I N D I N G 



                      of postmarketing study commitments. As commitments are fulfilled,
                      drug applicants may renumber remaining commitments, so that if
                      commitments “1” and “2” are fulfilled, a drug applicant may list the
                      original commitment “3” as commitment “1” in an ASR.

                      We observed that the commitment numbers and descriptions used in
                      ASRs did not always match the commitment numbers and descriptions
                      in the FDA database. In addition, we saw examples of FDA using
                      different commitment numbers in its validations of ASRs than it used in
                      the database of postmarketing study commitments. Having to
                      cross-reference multiple sources to determine the correct identifiers for
                      postmarketing study commitments adds to the already burdensome task
                      of tracking postmarketing study commitments.

                      FDA has recently adopted new procedures to minimize confusion
                      regarding how to number postmarketing study commitments. However,
                      this new process still relies on drug applicants to number commitments
                      consistently over time.
                      Database inconsistently populated. FDA frequently does not populate the
                      fields of its database of postmarketing study commitments with
                      information from commitment letters and ASRs that could assist
                      reviewers in tracking the progress of commitments. We observed that
                      database fields that should contain protocol submission dates, original
                      projected completion dates, study start dates, and current projected
                      completion dates are not always populated. For example, out of a total
                      of 2,353 commitments in the database, study start dates were present
                      for only 6 percent (132) and original projected completion dates were
                      present for only 21 percent (484). Without this information readily
                      available, it is difficult for reviewers to determine whether studies are
                      on schedule. In addition, FDA generally does not record in its database
                      the dates on which drug applicants make final report submissions; only
                      3 percent of commitments classified by FDA as “fulfilled” in the
                      database listed the final report submission date. Without this
                      information, it is not possible to readily determine the length of time it
                      takes for drug applicants to complete postmarketing study
                      commitments or whether they are being completed at all.

                      To determine whether drug applicants are completing their
                      postmarketing study commitments early, on time, or late, we attempted
                      to analyze postmarketing study commitments deemed by FDA to have
                      been fulfilled in fiscal year 2004.37 Because of missing data, we were
                      able to determine the timeliness of only 18 of the 145 commitments

    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    16
F   I N D I N G 



                      fulfilled in fiscal year 2004.38 Of these 18 commitments, 3 were
                      completed on time or early; the other 15 were completed, on average,
                      about 5 months late.

                      According to FDA officials, commitments that predated FDAMA and the
                      2001 reporting regulations may not have had study schedules
                      established at the time of approval and, therefore, would not necessarily
                      have commitment schedule dates within the database. We observed
                      that the prevalence of commitment schedule dates in the database has
                      improved since the 2001 reporting regulations were enacted. However,
                      the regulations called for all commitments, including those that predate
                      FDAMA, to submit ASRs that included schedules.39
                      Because the database of postmarketing study commitments is not
                      populated with these dates, the public Web site on postmarketing study
                      commitments may not keep the public and the medical community
                      informed of the status of postmarketing obligations.
                      Monitoring postmarketing study commitments is not a top priority at FDA
                      Of the FDA officials we interviewed at the 14 review divisions, officials
                      at 9 said that the current priority of monitoring postmarketing study
                      commitments poses a major or moderate challenge to their ability to
                      effectively monitor the progress of the studies. FDA officials told us
                      that, among other things, reviewing drug applications and documenting
                      FDA/industry meetings are higher priorities than reviewing
                      postmarketing study commitments and ASRs. Further, central OND
                      management provides project managers with regular updates on
                      upcoming Prescription Drug User Fee Act goals and other priority
                      items; however, no centrally generated report addresses postmarketing
                      study commitments and their progress toward completion. Many of the
                      FDA officials we interviewed told us that when they prioritize their
                      workloads, they simply lack the resources to accomplish all of the tasks
                      assigned to them.

                      FDA validated only 30 percent (65) of the 217 ASRs that were actually
                      submitted by drug applicants in fiscal year 2004 and included at least
                      one open postmarketing study commitment. Five review divisions did
                      not validate any of the ASRs they were charged with overseeing in fiscal
                      year 2004. Further, even when ASRs were validated, FDA frequently
                      did not meet its goal of completing ASR reviews within 90 days of
                      receipt and often appeared to fall short of meeting FDA requirements
                      for monitoring postmarketing study commitments. (See Appendix B,
                      Table 4, for additional information.) For example, we observed that

    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   17
                  FDA reviewers sometimes agreed with drug applicants even when the
                  applicants failed to provide one of the status options required by the
                  regulations.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   18
F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S                                                 





                      We recognize that FDA reviewers have multiple priorities in addition to
                      monitoring postmarketing study commitments and that FDA faces
                      limited staffing resources. We also recognize that FDA has taken steps
                      to improve its monitoring system for postmarketing study commitments
                      and has other initiatives underway. For example, in March 2005, FDA
                      finalized an internal manual of policies and procedures regarding
                      postmarketing study commitments and ASRs.40 FDA is also in the
                      process of redesigning its database of postmarketing study
                      commitments and enhancing the postmarketing study commitment
                      reporting system to make monitoring more efficient.

                      Postmarketing studies are important tools for gathering information
                      about the risks, benefits, and optimal uses of drugs that may not be
                      fully known until the drugs are approved and prescribed in the general
                      population. Yet, we have identified shortcomings in the extent to which
                      information is reported, the utility of the information that is collected,
                      and the effectiveness of the current management information system.
                      Taken together, these vulnerabilities raise concerns that FDA’s tools for
                      monitoring postmarketing study commitments—ASRs and its
                      management information system—may not ensure that postmarketing
                      study commitments are progressing toward completion.

                      Based on our review, we believe that FDA should take additional steps
                      to improve the system for monitoring postmarketing study
                      commitments so as to be able to readily identify whether and how
                      timely postmarketing study commitments are progressing toward
                      completion. Toward that end, we recommend that FDA:
                      Instruct Drug Applicants to Provide Additional, Meaningful Information in
                      Their ASRs
                      FDA should instruct drug applicants to provide in their ASRs when and
                      where they submitted reports on their open postmarketing study
                      commitments. FDA officials must review these other reports to
                      determine the progress of commitments.

                      While the regulations currently require drug applicants to report a
                      schedule for completion and reporting of the postmarketing study
                      commitment, they recommend but do not require that applicants
                      provide in their ASRs relevant dates of key milestones. Such milestones
                      could include: (1) submissions of study protocols, (2) completion of
                      participant enrollment, (3) completion of studies, and (4) submissions of

    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    19
R   E C O        M M E N D A T                           I O N     S


                      final reports. Toward this end, FDA may want to seek regulatory
                      change to require a greater a level of detail in ASRs.
                      Improve the Management Information System for Monitoring Postmarketing
                      Study Commitments So That It Provides Timely, Accurate, and Useful
                      Information
                      FDA should take several steps to improve its management information
                      system:
                      o Ensure that commitments are numbered uniquely and logically.

                          The current numbering of postmarketing study commitments can
                          create confusion and lead to misidentifying commitments. An
                          effective numbering system would assign a unique identifier at the
                          time of approval. FDA could then instruct drug applicants to use
                          those unique identifiers on any submissions made to the agency,
                          and FDA could use the identifiers in its management information
                          system and on all correspondence regarding postmarketing study
                          commitments.
                      o Ensure that the database is populated with useful information.

                          Some information on postmarketing study commitments is already
                          entered into FDA’s database. FDA should also populate its
                          database with, at a minimum, the following items: (1) study start
                          dates, (2) original scheduled completion dates, and (3) final report
                          submission dates.

                          Further, FDA should consider populating the database with
                          additional information, including: (1) references to reports
                          submitted by drug applicants, (2) numbers of participants enrolled
                          while commitments are “ongoing,” and (3) information pertaining to
                          why commitments are “delayed,” whenever applicable.
                      o Enhance the current reporting capability that identifies late ASRs
                          and outstanding commitments.

                          There appears to be a low level of awareness within the review
                          divisions of the reports that identify late ASRs and outstanding
                          commitments. Furthermore, these reports may be of limited utility.
                          An enhanced management information system could generate
                          reports that would enable reviewers to readily identify approved
                          new drug applications for which ASRs are due as well as those with
                          open commitments that are behind schedule.



    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS     20
R   E C O        M M E N D A T                           I O N     S


                      Ensure That Postmarketing Study Commitments Are Being Monitored and
                      That ASRs Are Being Validated
                      FDA must ensure that reviewers are meeting their oversight
                      responsibilities for postmarketing study commitments. Although FDA
                      faces competing priorities and limited staffing resources, ensuring that
                      postmarketing studies are being completed in a timely manner is crucial
                      to ensuring that the public and the medical community are aware of the
                      risks, benefits, and optimal uses of approved drugs. To this end, FDA
                      must ensure that reviewers have the information, tools, and time they
                      need to complete this important task.

                      FDA should also consider seeking authority to obtain additional
                      recourse options in cases of postmarketing study commitments that lag
                      far behind schedule or for which required documents are not submitted.
                      Currently, short of withdrawing a drug from the market—a remedy
                      available to FDA only in limited circumstances—the only short-term,
                      practical options available to FDA in dealing with drug applicants that
                      do not comply with the terms of their commitments are sending letters
                      and placing phone calls. Providing FDA reviewers with additional tools,
                      such as the ability to impose monetary fines, may send a signal to drug
                      applicants that there are consequences when postmarketing study
                      commitments are not fulfilled.


                      AGENCY COMMENTS
                      FDA disagreed with our finding that it cannot readily identify whether
                      and how timely postmarketing study commitments are progressing
                      toward completion. The agency emphasized both the seriousness with
                      which it takes its obligation to monitor the progress of postmarketing
                      study commitments and that it makes some information regarding the
                      commitments publicly available.

                      FDA concurred with two of our three recommendations. Specifically,
                      FDA agreed with our recomendations to improve the management
                      information system for monitoring postmarketing study commitments
                      and to ensure that postmarketing study commitments are being
                      monitored and ASRs are validated. The agency highlighted ongoing
                      efforts to enhance its postmarketing study commitment database and
                      reporting capabilities, train its review division staff on ASR validation
                      procedures, and standardize the process by which postmarketing study
                      commitments are requested and reviewed.



    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    21
R   E C O        M M E N D A T                           I O N     S


                      FDA disagreed with our recommendation that it instruct drug
                      applicants to provide additional, meaningful information in their ASRs,
                      stating that implementing such a recommendation would require new
                      regulations.

                      See Appendix C for complete agency comments.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      In disagreeing with our finding, FDA highlighted several areas in which
                      it has made improvements. We appreciate that FDA has taken steps to
                      improve its monitoring of postmarketing study commitments. However,
                      our review of the postmarketing study commitment database and
                      annual status reports, as well as our interviews with agency officials,
                      demonstrated that FDA cannot readily identify whether or how timely
                      postmarketing study commitments are progressing toward completion
                      for the period of our review.

                      We recognize that our recommendation that FDA instruct drug
                      applicants to provide additional, meaningful information in their ASRs
                      could require regulatory changes. In response, we added language to
                      our recommendation acknowledging that FDA may need to seek
                      regulatory changes to improve its system for monitoring postmarketing
                      study commitments.

                      We also made other minor changes to our report based on FDA’s
                      technical comments.




    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   22
Δ   E N D N O T E S                                  





                     Federal Food, Drug, and Cosmetic Act of 1938, as amended.
                      1

                  21 U.S.C. § 355.

                     Drug applicants typically are pharmaceutical or biotechnology
                      2

                  companies seeking FDA’s approval to market a new drug by submitting a
                  new drug application.

                     Department of Health & Human Services, Food and Drug
                      3

                  Administration, “Report to Congress on Postmarketing Studies
                  [FDAMA 130],” April 2002.

                     Department of Health & Human Services, Office of Inspector General,
                      4

                  “Postmarketing Studies of Prescription Drugs” (OEI-03-94-00760),
                  May 1996.

                     Department of Health & Human Services, Food and Drug
                      5

                  Administration, “Report to Congress on Postmarketing Studies
                  [FDAMA 130],” April 2002.

                     Department of Health & Human Services, Food and Drug
                      6

                  Administration, “Report to Congress on Postmarketing Studies
                  [FDAMA 130],” April 2002, p. 1.

                     See, for example: Henderson, D. June 1, 2005. “Speedy drug-review
                      7

                  process ‘broken.’” Boston Globe: D3.

                    Also see: Fontanarosa, P.B., Rennie, D., and DeAngelis, C.D.
                  December 1, 2004. “Postmarketing Surveillance—Lack of vigilance, lack
                  of trust.” Journal of the American Medical Association 292 (21):
                  2647-2650.

                     The following are the four situations in which FDA can require drug
                      8

                  applicants to conduct postmarketing studies:

                      Accelerated approval. FDA may approve a drug based on a surrogate
                      clinical endpoint. For example, FDA may approve a cancer drug based
                      on the surrogate endpoint that the drug reduces tumor size, instead of
                      the endpoint of increased life expectancy. In such cases, FDA requires




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS       23
                      the applicant to conduct postmarketing studies to verify the safety and
                      efficacy of the drug after it is on the market. FDA may withdraw the
                      drug if the studies do not demonstrate effectiveness, raise safety
                      concerns, or are not completed with due diligence.
                      See 21 U.S.C. 356, 21 CFR § 314.510, and 21 CFR § 314.530.

                      Deferred pediatric studies. FDA requires all new drugs that are likely
                      to be used in pediatric patients to demonstrate, prior to approval, their
                      safety and efficacy in relevant pediatric populations. However, FDA
                      may defer this requirement until after the drug is approved for use in
                      adults. When FDA grants a deferral, it requires the applicant to
                      conduct postmarketing studies to demonstrate the safety and efficacy of
                      the drug in pediatric participants. If the applicant fails to conduct such
                      studies, FDA may consider the drug misbranded and may authorize an
                      injunction, seizure, or other action. See: Pediatric Research Equity Act
                      of 2003; 21 CFR § 314.55; 21 U.S.C. §§ 331-334; and 63 Federal
                      Register 66,631, December 2, 1998, Regulations Requiring
                      Manufacturers to Assess the Safety and Effectiveness of New Drugs
                      and Biological Products in Pediatric Patients.

                      Animal efficacy rule. FDA may approve a drug based solely on animal
                      studies when clinical studies in humans cannot be conducted ethically.
                      Under these circumstances, FDA requires the applicant to conduct
                      postmarketing studies to verify and assess the safety and efficacy of the
                      drug in humans. If the applicant fails to perform the studies with due
                      diligence, FDA may withdraw the drug. See 21 CFR § 314.610 and
                      21 CFR § 314.620.

                      Determination to revoke approval. FDA may require an applicant to
                      conduct a postmarketing study after the drug is already approved if
                      information is needed to determine whether the approval of the drug
                      should be revoked. This is typically used for cases in which there is a
                      serious concern about safety. (FDA does not track these situations in
                      its database of postmarketing study commitments.)
                      See 21 U.S.C. §§ 355(e) and 355(k).

                      9   21 U.S.C. § 356b.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS            24
                     Department of Health & Human Services, Food and Drug
                      10

                  Administration, “Report to Congress on Postmarketing Studies
                  [FDAMA 130],” April 2002.

                      11   21 U.S.C. § 356b.

                      Prior to FDAMA, drug applicants were required to report on
                      12

                  postmarketing studies. 21 CFR § 314.81. However, Section 130(a) of
                  Title I of FDAMA (1) requires applicants to provide more detailed
                  information on the status of their commitments and (2) made certain
                  information publicly available.

                       65 Federal Register 64,607, October 30, 2000, Postmarketing Studies
                      13

                  for Approved Human Drug and Licensed Biological Products; Status
                  Reports.

                      14   21 CFR § 314.81(b)(2)(vii).

                      Although these studies are excluded from FDAMA, they still must be
                      15

                  reported to FDA under a different reporting requirement,
                  21 CFR § 314.81(b)(2)(viii).

                      16   21 CFR § 314.81(b)(2)(vii).

                      17   21 CFR § 314.81(b)(2).

                      Department of Health & Human Services, Food and Drug
                      18

                  Administration, “Guidance for Industry, Reports on the Status of
                  Postmarketing Studies—Implementation of Section 130 of the Food and
                  Drug Administration Modernization Act of 1997,” February 2006, p. 14.

                      Department of Health & Human Services, Food and Drug
                      19

                  Administration, Draft Guidance, “Guidance for Industry, Reports on the
                  Status of Postmarketing Studies—Implementation of Section 130 of the
                  Food and Drug Administration Modernization Act of 1997,” April 2001.

                      Department of Health & Human Services, Food and Drug
                      20

                  Administration, “Guidance for Industry, Reports on the Status of
                  Postmarketing Studies—Implementation of Section 130 of the Food and
                  Drug Administration Modernization Act of 1997,” February 2006.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS    25
                      21   21 U.S.C. § 356b(d).

                      Department of Health & Human Services, Food and Drug
                      22

                  Administration, Press Release, “FDA Acts to Strengthen the Safety
                  Program for Marketed Drugs,” November 5, 2004.

                      Department of Health & Human Services, Press Release, “Reforms
                      23

                  Will Improve Oversight and Openness at FDA,” February 15, 2005.

                      Food and Drug Administration, Center for Drug Evaluation and
                      24

                  Research, Manual of Policies and Procedures, “Procedures for Tracking
                  and Reviewing Phase 4 Commitments,” effective date October 1, 1996.

                      Postmarketing study commitment database available online at
                      25

                  http://www.accessdata.fda.gov/scripts/cder/pmc/index.cfm. Last accessed
                  May 19, 2006.

                      Food and Drug Administration, Center for Drug Evaluation and
                      26

                  Research, Manual of Policies and Procedures, “Procedures for Completing
                  and Processing the Form ‘Annual Report Review: Postmarketing Study
                  Commitment Summary,’” effective date March 16, 2005.

                      Food and Drug Administration, Center for Drug Evaluation and
                      27

                  Research, Manual of Policies and Procedures, “Procedures for Tracking
                  and Reviewing Phase 4 Commitments,” effective date October 1, 1996.

                     Department of Health & Human Services, Office of Inspector
                      28

                  General, “Postmarketing Studies of Prescription Drugs”
                  (OEI-03-94-00760), May 1996.

                     Department of Health & Human Services, Office of Inspector
                      29

                  General, “FDA’s Review Process for New Drug Applications”
                  (OEI-01-01-00590), March 2003.

                      On October 1, 2003, FDA transferred certain product oversight
                      30

                  responsibilities from the Center for Biologics Evaluation and Research
                  (CBER) to CDER. CBER postmarketing commitments and its review
                  divisions were excluded from this review.

                      31   21 CFR § 314.81(b)(2)(vii)(a)(8).




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS       26
                      Department of Health & Human Services, Food and Drug
                      32

                  Administration, Draft Guidance, “Guidance for Industry, Reports on the
                  Status of Postmarketing Studies—Implementation of Section 130 of the
                  Food and Drug Administration Modernization Act of 1997,” April 2001.

                      Department of Health & Human Services, Food and Drug
                      33

                  Administration, Draft Guidance, “Guidance for Industry, Reports on the
                  Status of Postmarketing Studies—Implementation of Section 130 of the
                  Food and Drug Administration Modernization Act of 1997,” April 2001,
                  p. 14.

                    The finalized guidance is consistent with the draft guidance.
                  See Department of Health & Human Services, Food and Drug
                  Administration, “Guidance for Industry, Reports on the Status of
                  Postmarketing Studies—Implementation of Section 130 of the Food and
                  Drug Administration Modernization Act of 1997,” February 2006, p. 12.

                      Department of Health & Human Services, Food and Drug
                      34

                  Administration, Draft Guidance, “Guidance for Industry, Reports on the
                  Status of Postmarketing Studies—Implementation of Section 130 of the
                  Food and Drug Administration Modernization Act of 1997,” April 2001,
                  p. 15.

                    The finalized guidance is consistent with the draft guidance.
                  See Department of Health & Human Services, Food and Drug
                  Administration, “Guidance for Industry, Reports on the Status of
                  Postmarketing Studies—Implementation of Section 130 of the Food and
                  Drug Administration Modernization Act of 1997,” February 2006, p. 14.

                       We reviewed ASRs submitted in fiscal year 2004 and compared the
                      35

                  commitments addressed in the reports to the commitments listed in the
                  database of postmarketing study commitments. We identified examples
                  of new drug applications and postmarketing commitments that were
                  listed in the database and, therefore, would have required ASRs; yet
                  ASRs were missing for some of these new drug applications. (We cross-
                  referenced the database to a list, provided to us by CDER, of all annual
                  reports that should have included an update on postmarketing study
                  commitments in fiscal year 2004.) We requested that CDER look into
                  some of the missing ASRs.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS     27
                      36   21 CFR § 314.81(b)(2)(vii).

                      CDER provided us with a list of 160 commitments associated with
                      37

                  68 unique new drug applications that were fulfilled in fiscal year 2004;
                  we were able to analyze 145 of these commitments associated with
                  59 unique new drug applications. The others were excluded because they
                  were outside the period of our inquiry and/or could not be matched to
                  commitments in CDER’s database of postmarketing study commitments.

                       When the original projected completion date and/or the final report
                      38

                  submission date were not available, we could not determine the amount
                  of time it took for postmarketing study commitments to be fulfilled.

                      65 Federal Register 64,607, 64,608, October 30, 2000, Postmarketing
                      39

                  Studies for Approved Human Drug and Licensed Biological Products;
                  Status Reports.

                      Food and Drug Administration, Center for Drug Evaluation and
                      40

                  Research, Manual of Policies and Procedures, “Procedures for Completing
                  and Processing the Form ‘Annual Report Review: Postmarketing Study
                  Commitment Summary,’” effective date March 16, 2005.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS     28
Δ   A P P E N D I X                                  ~     A      



                  METHODOLOGY
                  Analysis of FDA’s Postmarketing Database
                  We obtained from the Food and Drug Administration (FDA) its data on
                  the status of all postmarketing study commitments associated with new
                  drug applications issued between October 1, 1989, and September 30,
                  2004. To obtain additional data on these commitments, we requested
                  that FDA link the database of postmarketing study commitments to its
                  Oracle-based management information system, which contains
                  information including drugs’ approval dates, drugs’ review divisions,
                  whether drugs are new molecular entities (NMEs), and types of
                  commitments.

                  Our analysis of postmarketing study commitments is based on a
                  population of 2,353 commitments. The database actually contained
                  2,381 unique postmarketing study commitments, but we excluded
                  28 because they were associated with new drug applications approved
                  before October 1, 1989, and therefore, outside the scope of our review.
                  We did include in our analysis 279 studies that are associated with
                  more than one new drug application.

                  One limitation of the database is that it does not generally contain the
                  dates on which commitments were initiated (most, but not all,
                  commitments are made at the time of drug approval). Therefore, to
                  associate commitments with fiscal years, we linked each commitment to
                  the approval date of its associated new drug application.

                  The database has additional limits. First, it does not contain many
                  dates that would be useful in monitoring postmarketing study
                  commitments. Further, prior to the implementation of the Food and
                  Drug Administration Modernization Act of 1997 (FDAMA),
                  postmarketing study commitments were not required to have schedules.
                  Therefore, one cannot determine whether postmarketing study
                  commitments associated with new drug applications from 2001 or
                  earlier are, or were, on schedule.

                  We used Microsoft Excel® to perform various trend analyses. We
                  conducted trend analyses of postmarketing study commitments
                  associated with new drug applications by fiscal year, study type, study
                  category, review division, and study status. We conducted the same
                  trend analyses for postmarketing study commitments associated with
                  NMEs, which are a subset of new drug applications.


OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   29
A   P   P E N D       I X            ~          A


                      Review of ASRs and Corresponding FDA Reviews
                      We obtained from FDA a list of the 336 annual reports that were or
                      should have been received from drug applicants in fiscal year 2004 and
                      that should have contained annual status reports (ASRs) for open
                      postmarketing study commitments. We classified these submissions
                      based on whether they contained required information. We reviewed all
                      commitments listed in the 217 ASRs in which drug applicants actually
                      provided information on their open postmarketing study commitments.
                      Because we determined that the numbering of commitments in ASRs
                      was not always consistent with the numbering of commitments in the
                      database of postmarketing study commitments, we attempted to match
                      each commitment listed in an ASR to a commitment in the database by
                      using the descriptions of the commitments. We found 788 commitments
                      for which there were matches, and excluded all remaining commitments
                      from our analysis. We used a set protocol to extract information from
                      the reports into a Microsoft Access® database.

                      We also reviewed all available FDA validations and other supporting
                      documentation associated with postmarketing study commitments for
                      fiscal year 2004 ASRs. FDA provided us with 66 validation forms, of
                      which we excluded 1 because it addressed only control, manufacturing,
                      and chemistry studies; these were outside the scope of our review. We
                      reviewed this documentation to determine (1) the extent to which the
                      reviews were completed on time and (2) the extent to which FDA
                      reviewers concurred with progress on commitments as reported by drug
                      applicants. We used a set protocol to extract information from these
                      documents into a Microsoft Access® database.
                      Review of FDA Fulfillment Letters
                      To determine how long it takes to complete postmarketing study
                      commitments, we reviewed all FDA fulfillment letters issued in fiscal
                      year 2004. FDA sends fulfillment letters to drug applicants to
                      acknowledge completed commitments. We had to review fulfillment
                      letters because the dates associated with postmarketing study
                      commitments, including fulfillment dates, were not required in ASRs
                      before the implementation of FDAMA and, therefore, were not
                      consistently tracked in FDA’s database of postmarketing study
                      commitments.

                      FDA provided us with fulfillment letters for 160 postmarketing
                      commitments that were associated with 68 unique new drug
                      applications. We excluded 15 commitments because they were either


    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   30
A P P E N D        I X            ~          A


                   not listed in the database or there was a discrepancy between the
                   details in the fulfillment letters and the descriptions in the database
                   that led us to question whether there was actually a match. Of the
                   remaining 145 commitments, we had to exclude 127 for which we could
                   not determine the original scheduled completion dates and/or the dates
                   on which final reports were submitted; this left us with 18 commitments
                   to analyze.
                   Case Studies
                   Based on our analysis of the fiscal year 2004 fulfillment letters for
                   postmarketing study commitments, we identified the nine commitments
                   that were fulfilled the latest. We obtained all ASRs and corresponding
                   FDA reviews associated with these commitments from the time the
                   commitments were made through fulfillment, as well as any additional
                   correspondence regarding those commitments. We reviewed this
                   documentation to determine: (1) why commitments were late and (2)
                   the extent to which FDA reviewers concurred with the progress of
                   commitments as reported by drug applicants. We also attempted to
                   determine the extent to which FDA reviewers followed up with drug
                   applicants regarding any issues the reviewers may have had with the
                   commitments.
                   Interviews With FDA Officials
                   We interviewed project managers at 14 of the 16 review divisions within
                   FDA. We did not interview officials at the two divisions responsible for
                   overseeing therapeutic biologic drugs because these drugs were outside
                   the scope of our inspection.
                   We used a structured questionnaire to conduct the interviews. The
                   questionnaire addressed: (1) FDA’s policies and procedures for
                   monitoring postmarketing study commitments, (2) the challenges FDA
                   faces in monitoring postmarketing study commitments, and
                   (3) recommendations for improving the process of monitoring
                   postmarketing study commitments. We conducted all interviews by
                   telephone.
                   Review of FDA Policies, Procedures, and Guidance Documents
                   We obtained and reviewed all relevant policies, procedures, and
                   guidance documents for postmarketing study commitments issued by
                   FDA. We used these documents to better understand the process for
                   monitoring postmarketing study commitments.




 OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   31
Δ   A P P E N D I X                                  ~     B       



                  DATA TABLES




                   Appendix Table 1. New Drug Applications With Postmarketing Study
                   Commitments, by Fiscal Year, 1990–2004

                                                                                          Number of New     Percentage of New
                                                                        Number of       Drug Applications    Drug Applications
                  Year of
                                                                         New Drug       With at Least One    With at Least One
                  Drug Approval
                                                                       Applications        Postmarketing        Postmarketing
                                                                                       Study Commitment     Study Commitment

                  1990                                                          70                    18                   26

                  1991                                                          62                    26                   42

                  1992                                                          86                    38                   44

                  1993                                                          84                    23                   27

                  1994                                                          63                    37                   59

                  1995                                                          71                    32                   45

                  1996                                                         120                    65                   54

                  1997                                                         124                    61                   49

                  1998                                                         107                    47                   44

                  1999                                                          77                    39                   51

                  2000                                                         106                    60                   57

                  2001                                                          71                    36                   51

                  2002                                                          64                    34                   53

                  2003                                                          86                    40                   47

                  2004                                                          93                    66                   71

                       Overall                                               1,284                   622                   48
                  Source: Office of Inspector General analysis of FDA data, 2005.




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                             32
A   P   P E N D       I X            ~          B           





                       Appendix Table 2. Postmarketing Study Commitments by
                       Review Division From Fiscal Years 1990–2004


                                                                                                          Number of         Percentage of
                                                                                                       Postmarketing       Postmarketing
                       CDER Review Division
                                                                                                              Study                Study
                                                                                                       Commitments         Commitments


                       Anti-Viral Drug Products                                                                     601                   26

                       Special Pathogen and Immunologic Drug Products                                               335                   14

                       Oncology Drug Products                                                                       197                       8

                       Neuropharmacological Drug Products                                                           189                       8

                       Metabolic and Endocrine Drug Products                                                        153                       7

                       Anesthetic, Critical Care, and Addiction Drug Products                                       129                       5

                       Gastro-Intestinal and Coagulation Drug Products                                              117                       5

                       Dermatologic and Dental Drug Products                                                        115                       5

                       Medical Imaging and Radiopharmaceutical Drug Products                                        102                       4

                       Anti-Infective Drug Products                                                                 101                       4

                       Reproductive and Urologic Drug Products                                                        91                      4

                       Anti-Inflammatory, Analgesic, and Opthalmologic Drug Products                                  77                      3

                       Over-the-Counter Drug Products                                                                 68                      3

                       Cardio-Renal Drug Products                                                                     38                      2

                       Pulmonary and Allergy Drug Products                                                            40                      2

                            Total                                                                                 2,353                  100
                       Note: This table attributes postmarketing study commitments to the CDER review divisions that existed between 1990 

                       and 2004.

                       Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                                       33
A   P   P E N D       I X            ~          B           





                       Appendix Table 3. Required Elements Missing From
                       Fiscal Year 2004 ASRs, per Postmarketing Study Commitment

                                                                           Number of Postmarketing      Percentage of Postmarketing
                       Element                                               Study Commitments for           Study Commitments for
                                                                         Which Element Was Missing      Which Element Was Missing*

                       Date of U.S. Approval                                                    149                              19

                       Date of Study Commitment                                                 145                              18

                       Schedule                                                                 141                              18

                       Explanation of Status                                                       78                            10

                       Applicant Name                                                              75                            10

                       Status of Commitment                                                        65                             8

                       Description of Commitment                                                   18                             2

                       Application Number                                                          10                             1

                       Product Name                                                                 6                            <1
                       * Column does not sum to 100 because rows are independent of one another.
                       Source: Office of Inspector General analysis of FDA data, 2005.




                       Appendix Table 4. Length of Time It Took FDA
                       to Validate Fiscal Year 2004 ASRs

                       Length of Time Between
                                                                               Number of Validations       Percentage of Validations
                       Submission and Validation


                       Less Than 90 Days                                                           29                            45

                       Between 91 and 180 Days                                                     19                            29

                       More Than 180 Days                                                          17                            26

                            Total                                                                  65                           100
                       Source: Office of Inspector General analysis of FDA data, 2005.




    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS                                34
Δ   A P P E N D I X                                  C

                  Agency Comments




OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   35 

A   P   P E N D       I X            ~          C           





    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   36 

A   P   P E N D       I X            ~          C           





    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS   37 

A   P   P E N D       I X            ~          A
Δ       A C K N O W L E D G M E N T S                                                      


                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Aimée Golbitz, Team Leader
                      Christopher Galvin, Program Analyst

                      Michael Flood, Program Analyst

                      Ayana Everett, Program Specialist

                      Linda Hall Moody, Program Specialist

                      Genevieve Nowolinski, Program Specialist

                      Elise Stein, Director, Public Health and Human Services




    OEI-01-04-00390   F D A’ S M O N I TO R I N G   OF   POSTMARKETING STUDY COMMITMENTS       38
